 OFFICE OF INSPECTOR GENERAL
 1B




            Audit Report

Audit of Railroad Retirement Act Benefit
 Overpayments and Internal Controls

             Report No. 11-07
              June 29, 2011




      RAILROAD RETIREMENT BOARD
      0B
                                EXECUTIVE SUMMARY

The Railroad Retirement Board (RRB), Office of Inspector General (OIG) reviewed
Railroad Retirement Act benefit overpayments (RRA overpayments) and internal
controls. The objectives of the audit were to assess the sufficiency of internal controls
as related to the main causes of RRA overpayments and identify opportunities to
improve the effectiveness of controls over the debt recognition process.

The OIG conducted this audit at the RRB’s headquarters in Chicago, Illinois from
November 2010 through May 2011.

Findings

The OIG identified the following weaknesses:

   •   RRA overpayments are not always processed timely.

   •   Completeness of records among agency systems is not always verified.

   •   Separation of duties is not always enforced for RRA overpayment transactions.

   •   Control logs and assurance reports were not always retained.

   •   Training attendance records were not always maintained.

   •   Management control documentation is not consistent with standards.

   •   Second authorizations for RRA overpayments exceeding $10,000 are not taking
       place.

   •   Duplicate RRA overpayments were not detected.

   •   Authorization can be omitted for Retirement Online Calculation (ROC) RRA
       overpayments.

Recommendations

To improve internal controls and their effectiveness, we recommended agency
management:

   •   Establish and implement time standards for RRA benefit overpayments and
       strengthen internal controls to ensure their identification and timely processing.

   •   Develop and implement controls to ensure the completeness of RRA
       overpayment data as it is transferred between systems.



                                             i
   •   Modify the Overpayment Recovery Correspondence System privileges to ensure
       proper separation of duties.

   •   Implement controls to ensure that the accounts receivable system control logs
       and assurance reports are maintained for inspection.

   •   Ensure that proof of training attendance is documented and maintained.

   •   Work with Management Control Review Committee to revise management
       control documentation to be consistent with Government Accountability Office
       standards for internal control.

   •   Strengthen the internal controls over the review and approval process for RRA
       overpayments greater than $10,000 to ensure that approvals comply with agency
       procedures for authorizations.

   •   Remind examiners of proper procedures for handling existing RRA
       overpayments notices and strengthen internal controls to ensure that duplicate
       overpayments are not created.

   •   Update the edits in the ROC program to ensure that authorization is obtained
       when required.

Management Responses

The Office of Programs disagreed with the findings and recommendations regarding the
timeliness of RRA overpayment processing and separation of duties. However, they
agreed to take corrective action on seven of the ten recommendations directed to them.
The Bureau of Fiscal Operations agreed to take corrective action on all four
recommendations directed to them. The full text of the Office of Programs response is
included in this report as Appendix IV and the Bureau of Fiscal Operations response is
included in Appendix V.




                                           ii
                                          TABLE OF CONTENTS

EXECUTIVE SUMMARY

INTRODUCTION

 Background ..................................................................................................................... 1

 Audit Objectives .............................................................................................................. 2

 Scope .............................................................................................................................. 3

 Methodology .................................................................................................................... 3

RESULTS OF AUDIT

 Timeliness of RRA Overpayment Processing ................................................................. 5
    Recommendations ..................................................................................................... 6
    Management's Response .......................................................................................... 6
    RRB-OIG’s Comments on Management’s Response ................................................ 6

 Completeness of RRA Overpayments............................................................................. 7
   Recommendations ..................................................................................................... 8
   Management’s Response .......................................................................................... 8

 Separation of Duties ........................................................................................................ 8
   Recommendation ....................................................................................................... 9
   Management’s Response .......................................................................................... 9
   RRB-OIG’s Comments on Management’s Response ................................................ 9

 Retention of Control Logs and Assurance Reports ......................................................... 9
    Recommendation ..................................................................................................... 10
    Management’s Response ........................................................................................ 10

 Maintenance of Attendance Records for Training ......................................................... 10
    Recommendations ................................................................................................... 11
    Management’s Response ........................................................................................ 11

 Documentation for Control Procedures ......................................................................... 12
   Recommendations ................................................................................................... 13
   Management’s Response ........................................................................................ 13

 Second Authorization Procedures ................................................................................. 13
    Recommendation ..................................................................................................... 14
    Management’s Response ........................................................................................ 14


                                                                  iii
Duplicate RRA Overpayments ...................................................................................... 14
  Recommendations ................................................................................................... 15
  Management’s Response ........................................................................................ 15

ROC Authorization Edits ............................................................................................... 15
  Recommendation ..................................................................................................... 16
  Management’s Response ........................................................................................ 16

APPENDICES

Appendix I Statistical Sampling Methodology and Results ............................................ 17

Appendix II Non-Statistical Sampling Methodology and Results - Approvals Greater
Than $10,000 ................................................................................................................ 20

Appendix III Non-Statistical Sampling Methodology and Results - Duplicate RRA
Overpayments ............................................................................................................... 21

Appendix IV Management’s Response - Office of Programs ........................................ 23

Appendix V Management’s Response - Bureau of Fiscal Operations ........................... 27




                                                              iv
                                 INTRODUCTION

This report presents the results of the Office of Inspector General’s (OIG) audit of
Railroad Retirement Act benefit overpayments (RRA overpayments) and internal
controls.

Background

The Railroad Retirement Board (RRB) is an independent agency in the executive
branch of the Federal government. The RRB administers the health and welfare
provisions of the RRA which provide retirement and survivor benefits for eligible
railroad employees, their spouses, widows and other survivors. During fiscal
year (FY) 2010 approximately 582,000 annuitants received benefits totaling
$10.8 billion under the RRA.

Program debt typically arises when a change in an annuitant’s personal or
employment status occurs. In many cases, notice of an event that will affect the
benefit payment amount is received after-the-fact. If the corrected rate is lower
than the amount actually paid in the past, an overpayment is created. When this
occurs, the agency recognizes a program debt in its financial records and takes
action to collect the overpayment. For FY 2010, new program debt totaled $53.9
million.

The main causes of RRA overpayments are events that take place after benefits
have been awarded that may affect eligibility or necessitate recomputation of the
benefit payment amount. These overpayments result from annuitant status
changes, such as death, divorce, remarriage or full-time student’s standing. Also
included are not reporting earnings in excess of current exempt amount, or last
pre-retirement non-railroad employment issues. Concurrent entitlement to Social
Security benefits, workers’ compensation or other retirement benefits may also
impact eligibility and/or benefit levels.

The Program Accounts Receivable system is a mainframe computer application
that supports the agency's debt recovery operations. The Debt Recovery
Division in the Bureau of Fiscal Operations has administrative responsibility for
the accounts receivable system.

The majority of the processing of RRA overpayments is performed by the
Retirement Benefit Division (RBD) and Survivor Benefits Division (SBD) within
the Office of Programs - Operations. The RBD is responsible for processing
changes in railroad retirement annuities and social security benefits for railroad
retirement workers and their spouses. The SBD performs similar functions for all
widow(er), disabled and surviving dependent children and grandchildren, and
surviving parents.




                                         1
Overpayment activities include adjusting monthly annuity payments based on
mechanical referrals and program integrity projects, calculating and releasing
overpayment letters, establishing the overpayment in the accounts receivable
system and initiating recovery of the overpayment.

The Office of Programs uses various systems to facilitate the tracking and
adjudication of cases. The Universal System Tracking and Reporting (USTAR)
program is a Web-Based Program that tracks work referrals from receipt until
completion. It is used by the supervisory staff to monitor work to ensure that it is
assigned and processed in a timely manner. Examiners use the program to
monitor the work assigned to them. USTAR also provides for verification that
authorization was performed by an individual qualified to authorize when such
authorization is required. Various reports can be generated for pending and
completed work. The overpayment recovery correspondence system (ORCS) is
D-Base personal computer program used to generate overpayment letters as
well as to record transactions in the agency’s accounts receivable system.

Internal control is an integral component of an organization’s management that
provides reasonable assurance concerning the effectiveness and efficiency of
operations, reliability of financial reporting, and compliance with applicable laws
and regulations. Pursuant to the provisions of the Federal Managers’ Financial
Integrity Act of 1982, the Government Accountability Office (GAO) has issued
“Standards for Internal Control in the Federal Government.” These standards
provide the overall framework for establishing and maintaining internal control
and for identifying and addressing major performance and management
challenges and areas at greatest risk of fraud, waste, abuse, and
mismanagement.

The RRB’s strategic plan includes “ensuring the integrity of benefit programs”
that is, the correct amount of benefits is being paid to the right people as the
second strategic objective in meeting the larger goal of serving as responsible
stewards for our customers’ trust funds and agency resources. This review
directly addresses that key area of performance.

Audit Objectives

The audit objectives were to:

   •   assess the sufficiency of internal controls as related to the main causes of
       RRA overpayments; and

   •   identify opportunities to improve the effectiveness of controls over the debt
       recognition process.




                                         2
Scope

The audit scope was RRA overpayments established in the accounts receivable
system in FY 2010 and the related internal controls for the main causes of RRA
overpayments.

Methodology

To accomplish the audit objectives, we:

   •   identified the main causes of the receivables established in the accounts
       receivable system;

   •   identified criteria from the GAO “Standards for Internal Control in the
       Federal Government”, and governing laws and regulations for RRA
       overpayments;

   •   reviewed prior OIG audit findings;

   •   reviewed applicable policies and procedures, including operating
       procedures;

   •   obtained a download of RRA debts established in FY 2010 and analyzed
       them to identify the main causes of overpayment;

   •   selected a statistical sample of RRA overpayments to test controls (see
       Appendix I);

   •   selected two non-statistical samples of RRA overpayments to test controls
       (see Appendix II and Appendix III);

   •   identified and assessed internal controls;

   •   conducted a walkthrough of the processing of a benefit overpayment; and

   •   interviewed agency management and staff.

We tested the data reliability of our statistical sample by comparing data from the
download, which was the source of our sample, to corresponding data in the
Accounts Receivable Header Table from the accounts receivable system. We
determined the download data was sufficiently reliable for the purposes of this
audit.




                                          3
We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives.

We conducted our fieldwork at the RRB’s headquarters in Chicago, Illinois from
November 2010 through May 2011.




                                       4
                               RESULTS OF AUDIT

Our audit found that the internal controls over RRA overpayments were either not
sufficient or not operating as designed in the following areas:

   •   timeliness of RRA overpayment processing;
   •   completeness of RRA overpayments;
   •   separation of duties;
   •   retention of control logs and assurance reports;
   •   maintenance of attendance records for training; and
   •   documentation for control procedures.

In addition, we identified opportunities to improve the effectiveness of controls
over the debt recognition process in the following areas:

   •   second authorization procedures;
   •   duplicate RRA overpayments; and
   •   ROC overpayment edits.

The details of our findings and recommendations for corrective action follow.
The full texts of management’s responses are included in this report as
Appendix IV – Office of Programs and Appendix V – Bureau of Fiscal Operations.


Timeliness of RRA Overpayment Processing

RRA overpayment cases are not always processed timely. Our review of 105
overpayment cases included 11 cases that were not processed within the
3 month criteria developed by the OIG for audit purposes. These RRA
overpayments, totaling $13,183, were processed between 3 months and 19
months.

We determined that three months was a reasonable timeframe to process RRA
overpayments because the agency’s financial statements are prepared on a
quarterly basis and this would provide a more accurate measure of accounts
receivable. The measurement of timeliness was gauged from the time the cases
were first entered into USTAR until they were recorded in the accounts
receivable system.

The Office of Programs’ internal goal of processing workload categories, which
can include RRA overpayments, is 95% within 150 days. Specific timeliness
standards have not been established for processing RRA overpayments.




                                         5
Transactions should be promptly recorded to maintain their relevance and value
to management in controlling operations and making decisions. This applies to
the entire process or life cycle of a transaction or event from the initiation and
authorization through its final classification in summary records. 1

Given the government-wide emphasis on improper payments as provided in the
Improper Payments Eliminations and Recovery Act of 2010, increased scrutiny
should be given to processing RRA overpayments in a timely manner. Delays in
processing RRA overpayments impact the agency’s financial statements and
could also impact the collectability of the overpayment. We found that internal
controls are not reliable for processing cases on a timely basis (see Appendix I).

Recommendations:

We recommend that the Office of Programs:

      1. establish and implement reasonable time standards for the processing of
         RRA overpayment cases; and

      2. strengthen internal controls to ensure that RRA overpayment cases are
         identified and processed timely.

Management’s Response

The Office of Programs disagrees with the finding and recommendations. The
Office of Programs stated that they have timeliness standards for handling their
workloads and that overpayment processing is timely based on objective criteria.
They also stated that, in general, the outcome of referral handling (overpayment,
underpayment, record correction) cannot be determined until the referral has
been worked by an examiner. The Office of Programs also stated that they do
not agree with changing the timeliness standards for over 120,000 cases in order
to achieve a small incremental gain in timeliness for the minority (5%) of referrals
that will ultimately be associated with an overpayment.

RRB-OIG’s Comments on Management’s Response

We disagree with the Office of Programs’ statement that overpayment processing
is timely based on objective criteria. Public law mandates that agencies establish
and maintain sufficient internal controls, including an appropriate control
environment, that effectively prevent improper payments from being made; and
promptly detect and recover improper payments that are made. 2 Office of
Programs current criteria of 150 days does not adhere to this mandate.



1
    “Standards for Internal Control in the Federal Government,” GAO/AIMD 00-21.3.1 (11/99) page 15.
2
    “Improper Payments Elimination and Recovery Act of 2010”, Public Law 111-204

                                                    6
We also disagree with the Office of Programs’ statement that the outcome of
referral handing cases cannot be determined until the referral has been worked
by an examiner. The OIG found that certain types of referrals can be identified
as overpayments based on prior experience. For example, we found that
referrals for social security benefit rate increases and earnings exceeding exempt
amounts often result in overpayments. Once the overpayment cases have been
identified, there is no reason a timeliness standard cannot be applied. While the
percentage of referrals that will ultimately be associated with an overpayment
could currently be 5%, as indicated by the Office of Programs’ response, the
percentage can vary. As such, we continue to emphasize the need for timely
processing of RRA overpayment cases.


Completeness of RRA Overpayments

The completeness of records that flow among agency systems is not always
verified. Currently, there is no validation, on a routine basis, of the completeness
of the transactions that pass from ORCS and USTAR to the accounts receivable
system.

For example, we found one case where the overpayment was identified in
USTAR, but not recorded in the accounts receivable system until 19 months
later.

Application controls are designed to help ensure completeness, accuracy,
authorization, and validity of all transactions during application processing.

Control should be installed at an application’s interfaces with other systems to
ensure that all inputs are received and are valid and outputs are correct and
properly distributed. 3

The completeness of RRA overpayments is not currently verified because the
agency has not recognized the differences that can result from inconsistencies
among these various systems.

Overpayment transactions that are not passed to and recorded in the accounts
receivable system affect accounts receivable and ultimately, the agency’s
financial statements.




3
    “Standards for Internal Control in the Federal Government,” GAO/AIMD 00-21.3.1 (11/99) page 17.

                                                    7
Recommendations:

We recommend that the Office of Programs:

      3. develop and implement controls to ensure the completeness of RRA
         overpayment data as it is transferred (mechanically or manually) between
         systems.

Management’s Response

In response to recommendation 3, the Office of Programs stated that the risk of
omission for manual USTAR-controlled referrals has been adequately addressed
through workload supervision and is very limited. However, they agree it may be
possible to do more to ensure the recording of overpayments originating in the
manual USTAR-controlled workloads is complete and will undertake to identify
additional control activities. They have agreed to work with the Bureau of Fiscal
Operations to strengthen controls over completeness of data passed
mechanically from ORCS to the accounts receivable system.

We recommend that the Bureau of Fiscal Operations:

      4. develop and implement controls to ensure the completeness of RRA
         overpayment data as it is transferred (mechanically or manually) between
         systems.

Management’s Response

In response to recommendation 4, the Bureau of Fiscal Operations stated that its
Debt Recovery Division has generated a service request to the Bureau of
Information Systems to develop a daily report that matches data uploaded by
ORCS to data received by the PAR system.


Separation of Duties

The Office of Programs has not established adequate controls to ensure
separation of duties for preparers and authorizers of accounts receivable
transactions. We found an instance of an individual having the authority to
control all key aspects of an accounts receivable transaction (see Appendix I).

Key duties and responsibilities need to be divided or segregated among different
people to reduce the risk of error or fraud. This should include separating the
responsibilities for authorizing transactions, processing and recording them,
reviewing the transactions, and handling any related assets. No one individual
should control all key aspects of a transaction or event. 4
4
    “Standards for Internal Control in the Federal Government,” GAO/AIMD 00-21.3.1 (11/99) page 14.

                                                    8
Some claims examiners have ORCS privileges allowing them to record accounts
receivable transactions that do not require authorization by a second individual.
When adequate separation of duties is not enforced, opportunities for error and
fraud are enhanced, such as accounts receivable balances being incorrectly
established and/or improperly altered.

Recommendation:

We recommend that the Office of Programs:

   5. modify ORCS privileges to ensure proper separation of duties.

Management’s Response

The Office of Programs disagrees. The Office of Programs stated that the
current configuration of privileges adequately separates key duties to reduce risk
to an acceptable level. They also stated that a single employee did not control all
key aspects of the questioned transaction because a second employee was
involved in the adjudicative activity that led up to recording the receivable.

RRB-OIG’s Comments on Management’s Response

The OIG disagrees with the Office of Programs statement that the current
configuration of privileges adequately separates key duties to reduce risk to an
acceptable level. Although fraud was not detected for the cited case, ORCS
privileges provide an opportunity for fraud to be perpetrated in the recording of a
receivable because an examiner has the ability to establish an overpayment and
record recovery after adjudication has taken place, without the review or approval
of a separate individual. In a different scenario, a partial recovery could be
improperly increased to eliminate a debt. Fraud is perpetrated by individuals who
have the opportunity, financial incentive and rationalization to do so. The risk of
fraud increases when management does not implement the necessary controls.


Retention of Control Logs and Assurance Reports

Accounts receivable system control logs and assurance reports that are used to
ensure the accuracy of debts established in the accounts receivable system were
not always available for examination. We found six instances where such control
logs and assurance reports were not maintained.




                                        9
Internal control and all transactions and other significant events need to be
clearly documented, and the documentation should be readily available for
examination. The documentation should appear in management directives,
administrative policies, or operating manuals and may be in paper or electronic
form. All documentation and records should be properly managed and
maintained.

RRB officials advised us that some older reports were discarded as newer
reports were generated. The performance of the control to document and detect
discrepancies affecting the accuracy of accounts receivable data cannot be
validated without documented evidence.

Recommendation:

We recommend that the Bureau of Fiscal Operations:

   6. implement controls to ensure that the accounts receivable system control
      logs and assurance reports are maintained for inspection.

Management’s Response

The Bureau of Fiscal Operations stated that they requested advice from the
Bureau of Information Services regarding the retention period for control logs and
assurance reports. The Bureau of Information Services researched the National
Archives and Records Administration’s General Records Schedules and advised
that there were no exact matches for control logs and assurance reports, but
suggested that the three year retention period for all other accounting
administrative files in Schedule 6, item 5(b), would be appropriate. The Bureau
of Fiscal Operations stated that they will immediately begin retaining control logs
and assurance reports for a three year period.


Maintenance of Attendance Records for Training

Training attendance records were not always maintained. Processing
overpayment cases can be a complex process, so agency employees are
provided training on a periodic basis on a variety of subjects. We found that the
Office of Programs did not always document such attendance. The Debt
Recovery Division did not document employee attendance at the training
sessions conducted during our period of review.




                                        10
Internal control and all transactions and other significant events need to be
clearly documented, and the documentation should be readily available for
examination. In addition, all documentation and records should be properly
managed and maintained. 5

The Office of Programs’ controls are not always working effectively. The Bureau
of Fiscal Operations does not have a control in place to document attendance for
examiner training.

Without documented attendance, management has no basis to determine which
employees have received the required training. This could impact their ability to
adjudicate cases accurately.

Recommendations:

We recommend that the Office of Programs:

    7. strengthen controls to ensure that proof of attendance is documented and
       that documentation is maintained.

Management’s Response

In response to recommendation 7, the Office of Programs agrees with the finding
and recommendation.

We recommend that the Bureau of Fiscal Operations:

    8. develop and implement controls to ensure that proof of attendance is
       documented and that documentation is maintained.

Management’s Response

In response to recommendation 8, the Bureau of Fiscal Operations stated that
they will develop a centralized uniform control log to document all training
throughout the bureau. The Bureau of Fiscal Operations also stated that each
division will be required to pass training information to the BFO administrative
assistant when training is complete for recordkeeping and tracking purposes.




5
  “Standards for Internal Control in the Federal Government,” GAO/AIMD 00-21.3.1 (11/99) pages 13 and
15.

                                                 11
Documentation for Control Procedures

Management control documentation prepared by the Office of Programs and the
Debt Recovery Division does not provide agency management with a reasonable
standard of internal controls that are consistent with the GAO “Standards of
Internal Controls for the Federal Government” for some areas.

The Office of Programs prepares management control documentation for the
following assessable units that incorporate overpayment case processing:
Retirement Post Adjudication Claims Processing and Survivor Benefits - Post.
The Debt Recovery Division prepares management control documentation for the
Debt Recovery assessable unit.

Internal control activities help ensure that management’s directives are carried
out. The control activities should be effective and efficient in accomplishing the
agency’s control objectives. Control activities occur at all levels and functions of
the entity.

They include a wide range of diverse activities such as approvals, authorizations,
verifications, reconciliations, performance reviews, maintenance of security, and
the creation and maintenance of related records which provide evidence of
execution of these activities as well as appropriate documentation. 6

RRB managers are accountable for the operations in their units. They perform
periodic management control reviews, make the first level determination of
whether a material weakness exists, prepare and implement corrective plans and
report on these activities. The Management Control Review Committee is
responsible for overseeing a process to identify and eliminate management
control weaknesses. The committee is also responsible for ensuring the
accuracy and completeness of reports on management controls.

Our review disclosed that the objectives and control techniques in the
documentation prepared by the Office of Programs and Debt Recovery Division
focus more on agency operations and less on internal controls. Their control
techniques do not address other key internal control areas such as segregation
of duties, controls over information processing, reconciliations and managing
human capital.

The risk of error or fraud increases without the development and implementation
of comprehensive internal controls. Agency management could place too much
reliance on the incorrect control objective and the incomplete control techniques.
In addition, control deficiencies could go undetected if the applicable activities
are not documented and tested.

6
 “Standards for Internal Control in the Federal Government,” GAO/AIMD 00-21.3.1 (11/99) pages 11 and
12.


                                                12
Recommendations:

We recommend that the Office of Programs:

   9. work with the management control review committee to revise
      management control documentation to be consistent with GAO guidance
      for internal controls.

Management’s Response

In response to recommendation 9, the Office of Programs stated that in view of
the current audit finding, they will request the advice and assistance of the
Management Control Review Committee in determining how to address OIG’s
concerns about overpayment-related management control documentation during
the next regularly scheduled management control review of the affected
assessable units.

We recommend that the Bureau of Fiscal Operations:

   10. work with the management control review committee to revise
       management control documentation to be consistent with GAO guidance
       for internal controls.

Management’s Response

In response to recommendation 10, the Bureau of Fiscal Operations stated that
although they believe the internal controls in the Debt Recovery Division are
comprehensive, they agree such controls may not be included in their control
documentation. The Bureau of Fiscal Operations stated that the Debt Recovery
Division will review its control documentation and work with the Management
Control Review Committee to ensure that controls for segregation of duties,
information processing, reconciliations and managing human capital are included
in its control documentation and tested for effectiveness.


Second Authorization Procedures

The controls used to identify RRA overpayment cases for the second
authorization are not effective. During our review of RRA overpayments that
exceeded $10,000, we found that second authorization is not taking place as
required by agency procedure. Examiners did not obtain second authorization as
required for 12 out of 14 manually processed sample cases in which the RRA
overpayments totaled $487,709 (see Appendix II).




                                      13
Agency procedure requires second authorization for RRA overpayments that
exceed the $10,000 threshold. The Office of Programs uses USTAR which
allows examiners the ability to notate the need for first and second authorization.

Examiners do not always follow procedures for second authorization.

The absence of second authorization for large RRA overpayments could result in
the establishment of incorrect payments as well as inaccurate details being
provided to the annuitant via the ORCS letter.

Recommendation:

We recommend that the Office of Programs:

   11. strengthen the internal controls over the review and approval process for
       RRA overpayments greater than $10,000 to ensure that approvals comply
       with agency procedures.

Management’s Response

The Office of Programs stated that although this control applies to less than 2%
of debt, they think it is an important control and agree to re-examine the design
and implementation of this control, including documentation of the control activity,
to determine how it can be improved.


Duplicate RRA Overpayments

Internal controls are insufficient to prevent and detect duplicate RRA
overpayments in the accounts receivable system. During our review of 17
potential duplicate RRA overpayments, we identified 5 duplicate receivables
totaling $3,078 (see Appendix III).

The proper application of internal controls is the principal means of assuring that
only valid transactions to exchange, transfer, use, or commit resources and other
events are initiated or entered into.

ORCS displays existing receivable records for the specified annuitant so that the
claims examiner can determine whether a new overpayment record should be
created. This control could prevent the creation of duplicate RRA overpayments.
We found that this control was not always used in the proper manner.

Duplicate RRA overpayments established in the accounts receivable system will
overstate accounts receivable records, thereby impacting the agency’s financial
statements.



                                        14
Recommendations:

We recommend that the Office of Programs:

      12. remind examiners of the proper procedures for handling existing RRA
          overpayment notices, and

      13. strengthen internal controls to ensure that duplicate RRA overpayments
          are not created.

Management’s Response

In response to recommendation 12, the Office of Programs agrees that a
reminder concerning the use of ORCS screens will benefit the process and they
plan to issue such a reminder.

While the Office of Programs stated they do not agree that controls are
insufficient in response to recommendation 13, they will review existing controls
to identify opportunities to improve prevention and/or timeliness of detection.


ROC Authorization Edits

Controls are not sufficient to ensure that authorization is always provided when
required. The Retirement Online Calculation (ROC) is an online mainframe
system used for calculating, awarding and adjusting retirement annuities. This
system is also used to process RRA overpayments. The ROC system allows an
examiner the opportunity to decline a first authorization even though it may be
required.

Transactions and other significant events should be authorized and executed
only by persons acting within the scope of their authority. This is the principle
means of assuring that only valid transactions to exchange, transfer, use or
commit resources and other events are initiated or entered into. Authorizations
should be clearly communicated to managers and employees. 7

The ROC program does not have an edit to prevent an examiner from completing
a case and stating that it does not need authorization from another individual.
This deficiency can result in potential cases not being authorized and errors
going undetected.




7
    “Standards for Internal Control in the Federal Government,” GAO/AIMD 00-21.3.1 (11/99) page 14.

                                                   15
Recommendation:

We recommend that the Office of Programs:

   14. update the edits in the ROC program to ensure that authorization is
       obtained when required.

Management’s Response

The Office of Programs agrees with this recommendation.




                                      16
                                                                       APPENDIX I
                 SAMPLING METHODOLOGY AND RESULTS
                         STATISTICAL SAMPLING

This appendix presents the methodology and results of our statistical sampling
test of internal controls over the processing and recording RRA overpayments.

Sample Objective

Our sampling objective is to determine:

      •   whether internal controls as related to the main causes of RRA
          overpayments are operating and effective, and
      •   if internal controls provide for the accurate and timely processing of
          RRA overpayments.

Scope

We selected the sample from a population of 28,773 account receivable records
totaling $51,238,709 for the period from October 1, 2009 through
September 30, 2010 which were downloaded from the accounts receivable
system. All such units in the universe were subject to selection.

Review Methodology

We used Attribute Sampling – One Step Acceptance using a 90% confidence
level and 5% critical error rate which directed a 105 case sample. The threshold
for acceptance was two errors. Two errors would permit the auditors to infer,
with a 90% confidence level, that controls were adequate to ensure accurate and
timely processing in 95% of RRA benefit overpayment cases.

Accuracy

We tested for accuracy by comparing our independent calculations of the
overpayment period and amount to the corresponding agency documentation.

Timeliness

We tested timeliness by calculating the time elapsed from the date the RRA
overpayments were first entered into USTAR until the date they were recorded in
the accounts receivable system. RRA overpayments recorded in the accounts
receivable system within 90 days from the date first entered into USTAR were
considered timely.




                                          17
                                                                      APPENDIX I
                 SAMPLING METHODOLOGY AND RESULTS
                         STATISTICAL SAMPLING

Other Tests of Internal Controls

We also tested the overall internal controls which consisted of determining
whether: 1) the required approvals were provided, 2) the principle of separation
of duties was followed, and 3) the supporting documentation was adequate.

Results of Review

We tested the 105 randomly selected RRA overpayments for the following
attributes related to internal controls over RRA overpayments.




                                                                                           Exceptions
                                                                              Exceptions
                                                                     Tested


                                                                                Non-
                       Internal Controls



   Test attributes

   •   Required approvals have been provided                         105        105            0
   •   Overpayment amount is correct                                 105        105            0
   •   Overpayment was processed in a timely manner                  105         94           11
   •   Overpayment approved by an individual other than
       preparer                                                      105        104                 1
   •   Documentation for overpayment is adequate                     105        105                 0

                                               Total Exceptions                               12

Audit Conclusion

Our evaluation of 105 cases identified 11 timeliness exceptions (10.48%), which
exceeded the sample acceptance threshold. As a result, we cannot conclude
that internal controls related to the main causes of RRA overpayments
(receivables) are operating and effective for the timely processing of such RRA
overpayments. No exceptions were identified for overpayment accuracy,
required approval and adequate documentation.

Our evaluation also identified an exception for separation of duties, which did not
exceed the sample acceptance threshold. While the sample results fell within the
parameters of being acceptable, the noted exception circumvents separation of
duties as individuals have the authority to control all key aspects of an accounts
receivable transaction.




                                        18
                                                                    APPENDIX I
                 SAMPLING METHODOLOGY AND RESULTS
                         STATISTICAL SAMPLING

Because of the number of exceptions, and the nature of the weaknesses
underlying the delays, we did not expand testing to determine whether a larger
sample would yield a different result.




                                       19
                                                                   APPENDIX II
                 SAMPLING METHODOLOGY AND RESULTS
                      NON-STATISTICAL SAMPLING
                   APPROVALS GREATER THAN $10,000

This appendix presents the methodology and results of our non-statistical
sampling test related to the approvals of RRA overpayments exceeding $10,000.

Sample Objective

The objective of our non-statistical sampling test was to assess whether internal
controls for the approval process of overpayment cases exceeding $10,000 are
operating and effective.

Scope

We selected the sample from a population of 502 account receivable records
exceeding $10,000 and totaling $11,216,343 for the period from October 1, 2009
through September 30, 2010 which were downloaded from the accounts
receivable system. All such units in the universe were subject to selection.

Review Methodology

We tested 14 benefit overpayment accounts receivable records that exceeded
$10,000. We used judgmental sampling to select these accounts receivable
records.

Sample Results

We tested the 14 RRA overpayments for the following attributes.




                                                                                           Exceptions
                                                                              Exceptions
                                                                     Tested


                                                                                Non-
                 Test attributes for approvals




Appropriate approvals were provided for RRA overpayments that           14           2        12
exceeded $10,000.

                                               Total Exceptions                               12

Audit Conclusion

Our non-statistical sampling test of RRA overpayments that exceeded $10,000
identified 12 of 14 accounts receivable records where second authorization was
not provided. As a result, we conclude that operating controls related to
approvals greater than $10,000 are not operating and effective.

                                        20
                                                                               APPENDIX III
                     SAMPLING METHODOLOGY AND RESULTS
                           NON-STATISTICAL SAMPLING
                        DUPLICATE RRA OVERPAYMENTS


This appendix presents the methodology and results of our non-statistical sampling test
over potential duplicate RRA overpayments.

Sample Objective

The objective of our non-statistical sampling test was to determine the validity of the
establishment of two RRA overpayment records for the same payee for the same
amount.

Scope

We selected the sample from a population of 28,773 account receivable records totaling
$51,238,709 for the period from October 1, 2009 through September 30, 2010 which
were downloaded from the accounts receivable system. All such units in the universe
were subject to selection.

Review Methodology

We tested 17 potential duplicates from overpayment records with the same claim
number, annuitant and overpayment amount. Other potential duplicates could have
occurred in universe, but remaining overpayment records were not tested as part of our
sample. We used judgmental sampling to select potential duplicate benefit
overpayment transactions.

Sample Results

We tested the 17 judgmentally selected potential duplicate RRA overpayments for the
following attributes.                                                                        Exceptions
                                                                                Exceptions
                                                                      Tested


                                                                                  Non-




Test attributes for duplicate RRA overpayments




Supporting documentation confirmed the validity of the duplicate         17          12               5
RRA overpayment.

                                                 Total Exceptions                                     5




                                            21
                                                                       APPENDIX III
                    SAMPLING METHODOLOGY AND RESULTS
                          NON-STATISTICAL SAMPLING
                       DUPLICATE RRA OVERPAYMENTS


Audit Conclusion

Our non-statistical sampling test identified 5 of 17 accounts receivable records where
duplicate RRA overpayments were established for the same overpayment amount,
claim number and annuitant. As a result, we conclude that operating controls related to
the establishment of duplicate RRA overpayments are not operating and effective.




                                          22
                                                                                APPENDIX IV



                          UNITED STATES                                                FORM G-IISr(l-92)
                          GOVERNMENT                                RAILROAD RETIREMENT BOARD

                          MEMORANDUM                                        June 16, 2011




TO:                   Diana Kruel
                      Assistant Inspector General for Audit

FROM:                 Ronal Russ~~~
                      Director of Policy and Systems

THROUGH:


SUBJECT:             Draft Report - Audit of Railroad Retirement Act Benefit Overpayments
                     and Internal Controls




Recommendation    We recommend that the Office of Programs establish and implement
1 and2            reasonable time standards for the processing of RRA overpayment cases
                  and strengthen internal controls to ensure that RRA overpayment cases are
                  identified and processed timely.


Office of         We disagree with the finding and recommendations. The Office of Programs
Programs          does have timeliness standards for handling its workloads and overpayment
Response          processing is timely based on objective criteria.

                   In their testing, 90% of OIG sample items were processed within the three-
                   month timeframe established by the auditors for use during their evaluation.
                   In addition, our data confirms the OIG sample finding that about 90% of
                   debts are processed into the accounts receivable within 90 days and also
                 · indicates that the average processing time for all overpayments is not more
                   than 30 days.

                  The 12 overpayments cited for delayed processing were cases referred for
                  manual handling through the USTAR system. In general, the outcome of
                  referral handling (overpayment, underpayment, record correction) cannot be
                  determined until the referral has been worked by an examiner. Less than
                  5% of the more than 120,000 units ofwork controlled by USTAR during
                  FY 2010 ultimately resulted in identification of an overpayment.

                  We do not agree with cha.nging the timeliness standards for over 120,000
                  cases in order to achieve a small incremental gain in timeliness for the
                  minority (5%) of referrals that will ultimately be associated with an
                  overpayment.



                                                23
                                                                                  APPENDIX IV
    Draft Report- Audit of Railroad Retirement Act Benefit
    Overpayments and Internal Controls, continued



 Recommendation    We recommend that the Office of Programs develop and implement controls
 3                 to ensure the completeness of RRA overpayment data as it is transferred
                   (mechanically or manually) between systems.


 Office of        With respect to the manual USTAR-controlled referrals, we believe that the
 Programs         risk of omission has been adequately addressed through workload
 Response         supervision: the case cited by the auditors was identified and recorded
                  through routine processes prior to the audit. We would also like to note that
                  the risk of omission is very limited. Less than 5% of USTAR-managed
                  referrals ultimately disclose an overpayment and only 18% of all
                  overpayments are processed manually into the accounts receivable system.

                  However, we do agree that it may be possible to do more to ensure that PAR
                  recording of overpayments originating in the manual USTAR-controlled
                  workloads is complete and we will undertake to identify additional control
                  activities. We also agree to work with BFO to identify ways to strengthen
                  controls over completeness of data passed mechanically from ORCS to the
                  accounts receivable system.

                  We will plan to complete our action on both issues by March 31, 2012.


Recommendation    Directed to the Bureau of Fiscal Operations.
4



Recommendation    We recommend that the Office of Programs modify ORCS privileges to
5                 ensure proper separation of duties.


Office of         We disagree. The current configuration of privileges adequately separates
Programs ·        key duties to reduce risk to an acceptable level. Separation of duties does
Response          not require that every data-enti)' action be approved by a second employee.
                  The privileges cited by the audit impact no more than 5% of transactions,
                  based on the OIG's acceptance sample result (1 questioned case out 105
                  debts reviewed). A single employee did not control all key aspects of the
                  questioned transaction because a second employee was involved in the
                  adjudicative activity that l~d up to recording of the receivable.


Recommendation    Directed to the Bureau of Fiscal Operations.
6




                                             24
                                                                                APPENDIX IV
 Draft Report- Audit of Railroad Retirement Act Benefit
 Overpayments and Internal Controls, continued


 Recommendation    We recommend that the Office of Programs strengthen controls to ensure
 7                 that proof of attendance is documented and that documentation is
                   maintained.


 Office of         We agree with the finding and recommendation. We believe that the missing
 Programs          documentation was due to records lost when the employee responsible for
 Response          survivor training retired. We will take corrective action by
                   September 30, 2011.


·Recommendation    Directed to the Bureau of Fiscal Operations.
8



Recommendation    We recommend that the Office of Programs work with the management
9                 control review committee to revise management control documentation to be
                  consistent with GAO guidance for internal controls.


Office of         The Office of Programs' Management Control Reviews were accepted by the
Programs          Management Control Review Committee (MCRC) which also develops the
Response          requirements for that process. In view of the current audit finding, we will
                  request the advice and assistance of the MCRC in determining how to
                  address the OIG's concerns about overpayment-related management control
                  documentation during the next regularly scheduled management control
                  review of the affected assessable units. We will request the MCRC's
                  assistance by October 31, 2011.


Recommendation    Directed to the Bureau of Fiscal Operations.
10


Recommendation    Vve recommend that the Office of Programs strengthen the internal controls
11                over the review and approval process for RRA overpayments greater than
                  $10,000 to ensure that approvals comply with agency procedures.


Office of         We agree that the second authorization of debts over $10,000 was not
Programs          sufficiently documented to permit auditor testing and, for that n~ason, its
Response          effectiveness could not be adequately demonstrated. Although it applies to
                  less than 2% of debt, we think it is an important control and agree to
                  re-examine the design and implementation of this control, including
                  documentation of the control activity, to determine how it can be improved.
                  We will complete the review and improvement process by March 31, 2012.




                                            25
                                                                                APPENDIX IV
 Draft Report- Audit of Railroad Retirement Act Benefit
 Overpayments and Internal Controls, continued


 Recommendation   We recommend that the Office of Programs remind examiners of the proper
 12               procedures for handling existing RRA overpayment notices.


 Office of        We agree that a reminder concerning the use of ORCS screens will benefit
 Programs         the process and we will issue such a reminder by July 17, 2011.
 Response


 Recommendation   We recommend that the Office of Programs strengthen internal controls to
 13               ensure that duplicate RRA overpayments are not created.


Office of         We will review existing controls to identify opportunities to improve
Programs          prevention and/or the timeliness of detection. However, we do not agree that
Response          controls are insufficient Effective internal control reduces risk but may not
                  eliminate it entirely: OIG analysis of the audit universe of 28,773 debts
                  identified only 5 duplicate debts. We will complete this process by
                  December 31, 2011.


Recommendation    We recommend that the Office of Programs update the edits in the ROC
14                program to ensure that authorization is obtained when required.


Office of         We agree. The Office of Programs will request the necessary programming
Programs          changes by September 30, 2011.
Response




cc:          Director of Operations
             Director of Program Evaluation and Management Services
             Chief Information Officer
             Chief Financial Officer
             Director of Debt Recovery
             Management Control Review Committee




                                           26
                                                                              APPENDIX V



                                                                                         FORM G-1151 (1-92)
                      UNITED STA'rJ<;s GovERNMENT
                                                                        RAILROAD RETIREMJ;;N'l' BOARD
                      MEMORANDUM




TO             Diana Kruel
               Assistant Inspector General for Audit

FROM           George y_  Govan-~,
               Chief Financial Office;   q
                                              v?--
DATE           June 13, 2011

SUBJECT:       Draft Audit of Railroad Retirement Act Benefit Overpayments
               and Internal Controls


This is in response to your request for comments on the above Draft Audit Report We
believe that accounts receivable is an integral part of the Railroad Retirement Board's
benefit payment system and agree that the internal controls regarding the establishment of
debt can be strengthened. Following are my comments on recommendations addressed to
the Bureau of Fiscal Operations (BFO).

Recommendation Number 4 recommends that BFO develop and implement controls to
ensure the completeness of RRA overpayment data as it is transferred between systems.
Railroad Retirement Account (RRA) overpayments are detected and calculated by the
Office of Programs (OP)- OP enters new debts and adjustments to existing debts in the
Overpayment Recovery Correspondence System (ORCS) to generate a bill and to upload
data into the Program Accounts Receivable (PAR) system. BFO's Debt Recovery
Division (DRD) has generated a service request to the Bureau of Information Systems
(BIS) to develop a daily report that matches data uploaded by ORCS to data received by
the PAR system. We believe that this report will be available within 90 days from the
date of this memo.

Recommendation Number 6 recommends that BFO implement controls to ensure that the
accounts receivable system control logs and assurance reports are maintained for
inspection_ We requested that the BIS-Division of Information Management (IM) advise
BFO of the retention period for control logs and assurance reports. BIS-IM researched the
National Archives and Records Administration's General Records Schedules and advised
that there were no exact matches for control logs and assurance reports, but suggested
that the three year retention period for all other accounting administrative files,
prescribed in Schedule 6, item 5(b), would be appropriate. As a result, BFO will
immediately begin retaining control logs and assurance reports for a three year period.
BFO considers this recommendation implemented.




                                         27
                                                                                APPENDIX V
                                             -2-




Recommendation Number 8 recommends that BFO develop and implement controls to
ensure that proof of attendance for training is documented and that documentation is
maintained. BFO does have some controls to document training; however, they are
maintained separately in various formats in each of our divisions. BFO will develop a
centralized, uniform control log to document all training throughout the bureau. Each
division will be required to pass training information to the BFO administrative assistant
when training is complete for recordkeeping and tracking purposes. We believe that this
process can be developed and implemented within 90 days from the date of this memo.

The report section entitled "Documentation for Control Procedures" discusses the Federal
Government's internal control standards and notes that the review of this area disclosed
that DRD's documented control techniques focus on operations but do not address key
areas such as segregation of duties, controls over information processing, reconciliations
and managing human capital. As a result, Recommendation Number I 0 recommends that
BFO work with the Management Control Review Committee (MCRC) to revise
management control documentation to be consistent with GAO guidance for internal
controls. Although we believe that our internal controls in DRD are comprehensive, we
agree that they may not be included in DRD's control documentation. DRD will review
its control documentation and work with the MCRC to ensure that controls for
segregation of duties, information processing, reconciliations, and managing human
capital are included in its control documentation and tested for effectiveness. We believe
that this review and revisions to DRD's control documentation may take up to 180 days
to complete from the date of this memo.

If there is any additional information you need, please advise me.


cc: Debt Recovery Manager




                                        28
